No:
IN THE

Supreme Court of the United States
OCTOBER TERM, 2020

CHEDDIE LAMAR GRIFFIN,
Petitioner,

Vv.

UNITED STATES OF AMERICA
Respondent.

PROOF OF SERVICE

I, NOEL G. LAWRENCE, do declare that on this 17th day of June, 2021, pursuant
to Supreme Court Rules 29.3 and 29.4, | have served the attached Motion For Leave
To Proceed In Forma Pauperis, and, Petition For Writ Of Certiorari on each Party to the
above proceeding, or, that Party's Counsel, and, on every other person required to be
served by depositing an envelope containing the documents in the United States Mail

properly addressed to each of them and with First Class Postage prepaid.

The name(s) and address of those served are as follows:

Hon. Elizabeth Prelogar, Acting Solicitor General of The United States
Department Of Justice - Room 5614
950 Pennsylvania Avenue, NW.
Washington, D.C. 20530-0001

“7
fp

   

AFFIANT

15
